Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




 THE FRAUD PREVENTION SYSTEM
IDENTIFIED MILLIONS IN MEDICARE
  SAVINGS, BUT THE DEPARTMENT
COULD STRENGTHEN SAVINGS DATA
  BY IMPROVING ITS PROCEDURES



  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                  Daniel R. Levinson
                                                   Inspector General

                                                       June 2014
                                                     A-01-13-00510
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

In the second implementation year of the Fraud Prevention System, we certify $54.2 million of
actual and projected savings in the Medicare fee-for-service program and a return on
investment of $1.34 for every dollar spent on the Fraud Prevention System. We also certify the
$210.7 million in unadjusted savings that the Fraud Prevention System identified.

WHY WE DID THIS REVIEW

The Small Business Jobs Act of 2010 (the Act) requires the Department of Health of Human
Services (the Department) to use predictive modeling and other analytics technologies
(predictive analytics technologies) to identify improper Medicare fee-for-service claims that
providers submit for reimbursement and to prevent the payment of such claims. The Act also
requires the Department’s Office of Inspector General (OIG) to certify the actual and projected
savings with respect to improper payments recovered and avoided and the return on investment
related to the Department’s use of the Fraud Prevention System (FPS) for each of its first 3
implementation years. In addition, the Act requires OIG to determine whether the Department
should continue, expand, or modify its predictive analytics technologies. This report fulfills our
responsibilities for the second implementation year.

The objectives of this review were to determine whether the Department (1) complied with the
requirements of the Act for reporting actual and projected savings in the Medicare fee-for-
service program, the return on investment from the use of predictive analytics technologies, and
the return on investment compared to other strategies or technologies; and (2) should continue,
expand, or modify its use of the FPS to increase savings or mitigate any adverse impact on
Medicare beneficiaries or providers.

BACKGROUND

To fulfill the Act’s requirement to use predictive analytics technologies, on June 30, 2011, the
Department’s Centers for Medicare & Medicaid Services (CMS), through its Center for Program
Integrity, established the FPS to identify and prevent fraud, waste, and abuse in the Medicare
fee-for-service program nationwide. The Department identifies both questionable billing
patterns and aberrancies using the FPS and provides this information through Alert Summary
Reports (referred to as “leads” in this report) to Zone Program Integrity Contractors and Program
Safeguard Contractors for investigations of potential fraud.

The Act requires that the Secretary submit to Congress and make publicly available a report that
includes information about the Department’s use of predictive analytics technologies for each of
the first 3 years of the FPS and that OIG certify specific aspects of this effort for each of the 3
years and recommend whether the Department should continue, expand, or modify its use of
predictive analytics technologies.

In our report to Congress for the first implementation year, we noted that the Department
implemented predictive analytics technologies, but it did not fully comply with the requirements
for reporting actual and projected savings in the Medicare fee-for-service program and the return

The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   i
on investment related to its use of predictive analytics technologies. We made five
recommendations in the first implementation year report, and the Department stated that it was
committed to working with us to incorporate our recommendations. As of September 30, 2013,
the Department implemented four of the five recommendations, including revising its
methodologies to incorporate adjustment factors to estimate FPS savings more accurately.

WHAT WE FOUND

In the second implementation year of the FPS, the Department has complied with the
requirements of the Act for reporting actual and projected savings in the Medicare fee-for-
service program and the return on investment from the use of predictive analytics technologies.
Specifically, we certify that the Department’s use of its FPS resulted in $54.2 million of actual
and projected savings to the Medicare fee-for-service program and a return on investment of
$1.34 for every dollar spent on the FPS. We also certify the $210.7 million in unadjusted
savings that the FPS identified.

This year, the Department developed adjustment factors to estimate FPS savings more precisely.
The $54.2 million in certified actual and projected savings was calculated by applying the
adjustment factors to the $210.7 million in certified unadjusted savings that the FPS identified.
The Department identified additional savings that we were unable to certify because the
documentation did not support that the FPS lead contributed to the administrative action.

The Department’s ongoing use of the FPS will strengthen efforts to prevent fraud, waste, and
abuse in the Medicare fee-for-service program. The Department’s use of the FPS generated a
positive return on investment, and the Department continues to refine its fraud detection models
using its governance process and applicable OIG recommendations to increase savings. The
Department has expanded the use of the FPS nationwide to identify fraud, waste, and abuse in
the Medicare fee-for-service program and is evaluating whether to expand the use of the FPS in
Medicaid. However, although the Department has made significant progress in addressing the
challenges of measuring actual and projected savings, its procedures were not always sufficient
to ensure that its contractors provided and maintained reliable data to always support FPS
savings.

WHAT WE RECOMMEND

To help increase savings and improve its reporting on savings measures, we recommend that the
Department:

    •   provide contractors with written instructions on how to determine when savings from an
        administrative action should be attributed to the FPS and

    •   require contractors to maintain documentation to support how an FPS lead contributes to
        an administrative action.




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   ii
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS generally concurred with our findings, concurred
with our recommendations, and outlined steps for implementing our recommendations.

CMS stated that “the concept of adjusted savings is important as it relates to this financial audit,
and CMS will continue to refine and use a similar methodology next year [emphasis in
original].” However, CMS stated that for a variety of reasons it “will continue to make decisions
on expanding the FPS based primarily on the identified savings.”

CMS stated that even though it provided documentation for an additional $39 million in savings,
we did not certify the savings or provide an explanation for our decision. In this regard, CMS
cited an example of disallowed savings for which it provided documentation. In addition, CMS
stated that it feels that this sentence in our report is inaccurate: “[T]he Department could not
ensure that its contractors provided and maintained reliable data to support FPS savings.”

CMS noted that it had implemented the recommendation from our first-year implementation
report to require contractors to track recoveries that result from FPS leads. However, CMS
recognized that it implemented the recommendation outside of our current audit period.

CMS took exception to our methodology statement regarding the completeness of savings and
costs data provided. CMS stated that it had provided complete costs data and that OIG did not
make any recommendations to improve costs data.

OUR RESPONSE

The “concept of adjusted savings” is important not only as it relates to a financial audit, but more
significantly as a measure of the savings and the return on investment related to the
Department’s use of the FPS. Identified savings does not represent a true return on investment
because only a portion of those savings are returned to, or prevented from leaving, the Medicare
Trust Funds. Therefore, decisions on expanding the FPS should be based primarily on adjusted
savings.

We disagree with CMS’s statement that we did not provide an explanation about the $39 million
in savings that we could not certify. As part of our methodology, we reviewed documentation to
determine if savings estimates were supportable. Because documentation could not support that
the FPS lead contributed to an administrative action for the reported $39 million in savings, we
could not certify these amounts.

As for the example that CMS included in its comments of disallowed savings for which it
provided documentation, during our fieldwork we contacted the responsible contractor to
determine the impact, if any, that the FPS lead had on the investigation. In its written reply, the
contractor stated that it had previously opened an investigation on the provider and that the
subsequent FPS lead did not impact the investigation. Therefore, in this example, we concluded
the FPS lead did not contribute to the $3 million administrative action.



The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   iii
We have revised the sentence that CMS suggested was inaccurate: “[T]he Department could not
ensure that its contractors always provided and maintained reliable data to support FPS savings.”

For the misunderstanding about the statement regarding costs in the scope and methodology
section, we used this statement to inform the reader that we obtained reasonable assurance that
the information provided was sufficient but recognize there could be additional data beyond that
provided by CMS.




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   iv
                                                    TABLE OF CONTENTS

INTRODUCTION ...........................................................................................................................1

           Why We Did This Review ...................................................................................................1

           Objectives ............................................................................................................................1

           Background ..........................................................................................................................1
                 Use of Predictive Analytics Technologies in Medicare ...........................................1
                 Centers for Medicare & Medicaid Services Fraud Prevention System ...................2
                 Office of Inspector General Certification of Actual and Projected Savings
                   in the Medicare Fee-for-Service Program.............................................................2
                 Office of Inspector General’s Certification of the Department’s Report to
                    Congress on the First Implementation Year of the Fraud Prevention System ....3
                 The Department’s Process for Modifying the Fraud Prevention System ................3

           How We Conducted This Review........................................................................................4

FINDINGS .......................................................................................................................................5

           The Department Complied With Reporting Requirements .................................................5

           The Department’s Use of the Fraud Prevention System ......................................................6

RECOMMENDATIONS .................................................................................................................7

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ....................................8

OFFICE OF INSPECTOR GENERAL RESPONSE ......................................................................8

APPENDIXES

           A: Office of Inspector General Recommendations and Department Actions in
              the First-Year Implementation Report .........................................................................10

           B: Audit Scope and Methodology.....................................................................................11

           C: Certified Fraud Prevention System Savings ................................................................14

           D: Auditee Comments.......................................................................................................15




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                                                         v
                                             INTRODUCTION

WHY WE DID THIS REVIEW

The Small Business Jobs Act of 2010 (the Act) requires the Department of Health of Human
Services (the Department) to use predictive modeling and other analytics technologies
(predictive analytics technologies) to identify improper Medicare fee-for-service claims that
providers submit for reimbursement and to prevent the payment of such claims. 1 The Act also
requires the Department’s Office of Inspector General (OIG) to certify the actual and projected
savings with respect to improper payments recovered and avoided and the return on investment
related to the Department’s use of the Fraud Prevention System (FPS) for each of its first 3 years
(the implementation years). 2 In addition, the Act requires OIG to determine whether the
Department should continue, expand, or modify its predictive analytics technologies. This report
fulfills our responsibilities for the second implementation year.

OBJECTIVES

Our objectives were to determine whether the Department (1) complied with the requirements of
the Act for reporting actual and projected savings in the Medicare fee-for-service program, the
return on investment from the use of predictive analytics technologies, and the return on
investment compared to other strategies or technologies and (2) should continue, expand, or
modify its use of the FPS to increase savings or mitigate any adverse impact on Medicare
beneficiaries or providers.

BACKGROUND

Use of Predictive Analytics Technologies in Medicare

The Act requires the Department to use predictive analytics technologies to (1) identify improper
Medicare fee-for-service claims that providers submit for reimbursement and (2) prevent the
payment of such claims. 3 Congress appropriated $100 million for the Department to carry out
the requirements of the Act. 4 The Department reported $34.7 million in costs for the first
implementation year and $40.5 million in costs for the second implementation year.



1
    P.L. No. 111-240 § 4241.
2
 The Act § 4241(e)(1)(B). The Act specifies that the first implementation year was July 1, 2011, to June 30, 2012.
The second implementation year was October 1, 2012, to September 30, 2013. The third implementation year is
January 1, 2014, to December 31, 2014.
3
 The Act § 4241(a). When the FPS prevents improper payments, the Department reports the savings as improper
payments avoided. When the FPS identifies improper payments already made, the Department reports the savings
as improper payments recovered.

4   The Act § 4241(h).


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                             1
Centers for Medicare & Medicaid Services Fraud Prevention System

To fulfill the Act’s requirement to use predictive analytics technologies, on June 30, 2011, the
Department’s Centers for Medicare & Medicaid Services (CMS), through its Center for Program
Integrity, established the FPS to identify and prevent fraud, waste, and abuse in the Medicare
fee-for-service program nationwide. The Department identifies both questionable billing
patterns and aberrancies using the FPS and provides this information through Alert Summary
Reports (referred to as “leads” in this report) to Zone Program Integrity Contractors (ZPICs) and
Program Safeguard Contractors (PSCs) for investigation. 5 These investigations can result in the
following administrative actions:

       •   Payment suspension—a temporary hold in an escrow account of all or a portion of the
           payments to a provider. When a payment suspension is terminated, the amounts withheld
           are first applied to reduce any outstanding overpayments.

       •   Law enforcement referrals—suspected fraud cases that are referred to law enforcement
           agencies for potential prosecution. Savings may be recovered as part of the resolution of
           these cases.

       •   Overpayment recoveries—Medicare payments that providers received in excess of
           amounts due and payable under statute and regulations. Medicare Administrative
           Contractors (MACs) issue demand letters to the providers and collect the overpayments.

       •   Prepayment edits—computer edits that suspend all or part of claims. Contractors
           review the claims before determining whether to make payments.

       •   Autodenial edits—computer edits that automatically deny all or part of the claims
           without making any payments to providers.

       •   Provider revocations—revocation of a provider’s Medicare status. This prevents
           revoked providers from being paid for any billing for claims.

The Department reports as savings the improper payments recovered or avoided as a result of
these administrative actions.

Office of Inspector General Certification of Actual and Projected Savings
in the Medicare Fee-for-Service Program

The Act requires that the Secretary submit to Congress and make publicly available a report that
includes information about the Department’s use of predictive analytics technologies for each of
the first 3 FPS implementation years. 6 In addition, the Act requires OIG to certify the actual and

5
    In this report, we use the term “contractors” to refer to both ZPICs and PSCs.
6
 The report for the first implementation year is Report to Congress: Fraud Prevention System First Implementation
Year, September 2012. Available online at http://www.stopmedicarefraud.gov/fraud-rtc12142012.pdf.


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                        2
projected savings with respect to improper payments recovered and avoided and the return on
investment related to the use of predictive analytics technologies in the Medicare fee-for-service
program for each of the first 3 implementation years. The Act also requires that OIG
recommend whether the Department should continue, expand, or modify its use of predictive
analytics technologies. 7

Office of Inspector General’s Certification of the Department’s Report to Congress on the
First Implementation Year of the Fraud Prevention System

In our report to Congress for the first implementation year, 8 we noted that the Department
implemented predictive analytics technologies, but it did not fully comply with the requirements
for reporting actual and projected savings in the Medicare fee-for-service program and the return
on investment related to its use of predictive analytics technologies. The Department did not
report all of the savings required and had inconsistencies in its data. In addition, its methodology
for calculating other reported savings included invalid assumptions that may have affected the
accuracy of those amounts. In those cases, we could not determine the accuracy of the
Department’s information, which impeded our ability to quantify the inaccuracies.

We made five recommendations in the first implementation year report, and the Department
stated that it was committed to working with us to implement our recommendations. As of
September 30, 2013, the Department has implemented four of the five recommendations.
Specifically, it revised two of its methodologies by including adjustment factors to estimate FPS
savings more accurately, 9 coordinated with law enforcement to enhance the reporting of referrals
that resulted from the FPS, and included appropriate costs for calculating return on investment.
The Department stated that it continues to work toward implementing the remaining
recommendation. 10 Appendix A includes more detail on our recommendations and the actions
taken to address them.

The Department’s Process for Modifying the Fraud Prevention System

The Department established an FPS governance process in the first implementation year to
provide oversight, management, and control of selecting and developing new models, enhancing
existing models, and implementing system changes to improve the FPS. This governance
process enables the Department to use fraud detection models to address identified


7
    The Act § 4241(e).
8
 “The Department of Health and Human Services Has Implemented Predictive Analytics Technologies but Can
Improve Its Reporting on Related Savings and Return on Investment” (A-17-12-53000), issued December 17, 2012.
Available online at http://oig.hhs.gov/oas/reports/region1/171253000.pdf.
9
 The Department also developed adjustment factors for four other savings categories. These factors were not
specifically related to our recommendations from our first implementation year report.
10
  CMS stated that on January 1, 2014, after the conclusion of our fieldwork, it implemented a change in the shared
systems to require contractors to track recoveries that result from FPS leads.


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                             3
vulnerabilities, such as those identified in OIG reports and investigations. The resulting models
are evaluated for impact and effectiveness before they are incorporated into the FPS.

HOW WE CONDUCTED THIS REVIEW

To satisfy the Act’s certification requirement, we conducted a performance audit to certify the
Department’s reported actual and projected savings to the Medicare fee-for-service program and
the Department’s return on investment. We define the term “certification” to mean a
determination that the Department’s reported actual and projected savings and its return on
investment were reasonably estimated.

We reviewed the unadjusted savings 11 and cost data that the Department provided to us from
October 2012 through September 2013. To evaluate whether the savings that the Department
attributed to the FPS were reasonable, we reviewed and discussed the supporting documentation
with contractor personnel and analyzed supporting documentation related to selected
administrative actions. We reviewed and confirmed that the documentation and historical data
used by the Department to establish adjustment factors to estimate FPS savings more accurately
were reasonable and supported. To calculate the adjusted savings amount, we applied the
Department’s various adjustment factors to the unadjusted savings from administrative actions to
estimate the FPS savings more accurately. 12 We also reviewed the reported costs for calculating
return on investment. We did not verify that the Department provided us with complete savings
and costs data.

To achieve our second objective, we reviewed the Department’s action plans to expand or
modify its use of the FPS to increase savings or mitigate any adverse impact on Medicare
beneficiaries or providers.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our scope and methodology.




11
  The Department’s second implementation year report to Congress refers to unadjusted savings as FPS “identified”
savings.
12
   According to the Department, historical data indicate that only a portion of identified improper payments are
recovered. The Department uses adjustment factors to determine the amount of identified recoverable savings
attributable to the FPS that will actually be collected or avoided. Therefore, the adjusted savings amount provides a
more accurate estimate of the dollars that the Department has already returned or is likely to return in the future
from the unadjusted savings.



The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                            4
                                                 FINDINGS

In the second implementation year of the FPS, the Department complied with the requirements
of the Act for reporting actual and projected savings in the Medicare fee-for-service program and
the return on investment from the use of predictive analytics technologies. We certify that the
Department’s use of its FPS resulted in $54.2 million of actual and projected savings to the
Medicare fee-for-service program and a return on investment 13 of $1.34 for every dollar spent on
the FPS. We also certify the $210.7 million in unadjusted savings that the FPS identified.

This year, the Department developed adjustment factors to estimate FPS savings more precisely.
The $54.2 million in certified actual and projected savings was calculated by applying the
adjustment factors to the $210.7 million in certified unadjusted savings that the FPS identified.
The Department identified additional savings that we were unable to certify because the
documentation did not support that the FPS lead contributed to the administrative action.

The Department’s continued use of the FPS will enhance its efforts to prevent fraud, waste, and
abuse in the Medicare fee-for-service program. The Department’s use of the FPS generated a
positive return on investment, and the Department continues to refine its fraud detection models.
The Department has expanded the use of the FPS nationwide to identify waste, fraud, and abuse
in the Medicare fee-for-service program, and the Department is evaluating whether to expand the
use of the FPS in Medicaid. In its second year, the Department continued to use its governance
process to develop and modify models. Although the Department has made significant progress
in addressing the challenges of measuring actual and projected savings, the Department’s
procedures were not always sufficient to ensure that its contractors provided and maintained
reliable data to always support FPS savings.

THE DEPARTMENT COMPLIED WITH REPORTING REQUIREMENTS

The Act requires the Department to report actual and projected savings with respect to improper
payments recovered and avoided, actual and projected savings relative to the return on
investment, and the return on investment compared to other strategies or technologies.

We certified that the Department’s use of the FPS resulted in $54.2 million of actual and
projected savings to the Medicare fee-for-service program. This includes savings for which the
FPS lead contributed to the administrative action by initiating an investigation or corroborating,
augmenting, and/or expediting an existing investigation. The $54.2 million certified amount
corresponds to $210.7 million of certified unadjusted savings that the FPS identified before we
applied the various adjustment factors to estimate FPS savings more accurately. (See
Appendix C.) Through the innovative development of adjustment factors, the Department


13
  The Department determines the FPS’s return on investment by comparing the sum of actual and projected savings
to the costs expended to achieve the savings. For the second implementation year, the Department calculated the
return on investment by dividing the total $54.2 million of actual and projected savings by the $40.5 million of
costs.



The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                       5
introduced a new concept to report a more precise estimate of FPS savings. Of the certified
actual and projected savings, 14 we found that:

       •   $10.1 million of projected improper payments were estimated to be recovered from law
           enforcement referrals and overpayment recoveries;

       •   $14.9 million of actual improper payments were estimated to be avoided through
           prepayment edits, autodenial edits, and payment suspensions; and

       •   $29.2 million of projected improper payments were estimated to be avoided by revoking
           provider billing privileges.

The Department identified $39.4 million of additional savings that we were unable to certify
because documentation did not support that the information in the FPS lead was new or that it
contributed to achieving the administrative action. Specifically, contractors’ investigation notes
and interviews with the contractors and Department officials did not support that the FPS
information was new information that contributed to achieving the administrative actions.

We also certified that the Department’s use of its predictive analytics technologies resulted in a
return on investment of $1.34 for every dollar spent on the FPS. The Department reported
$40.5 million in total costs for three categories: (1) $34.2 million for FPS system contractor
costs, (2) $2.3 million for Department staff costs, and (3) $4 million for contractor costs.

In the second implementation year, the Department did not compare the FPS to any other similar
technologies. The Department stated that direct comparisons with similar technology are
difficult to identify. The Department stated that as similar programs mature, it will compare the
success of the FPS with other technology being used “in the federal space.”

THE DEPARTMENT’S USE OF THE FRAUD PREVENTION SYSTEM

The Act requires that OIG recommend whether the Department should continue, expand, or
modify its use of predictive analytics technologies. 15

The Department’s continued use of the FPS will enhance its efforts to prevent fraud, waste, and
abuse in the Medicare fee-for-service program. The Department’s use of the FPS generated a
positive return on investment, and the Department continues to refine its fraud detection models
using its governance process. The Department has expanded the use of the FPS nationwide to
identify waste, fraud, and abuse in the Medicare fee-for-service program, and the Department is
evaluating whether to expand the use of the FPS in Medicaid.


14
  In the second implementation year, the Department did not identify any actual improper payments recovered.
Therefore, we did not certify any actual improper payments recovered.
15
     P.L. No. 111-240 § 4241(e)(1)(B)(iii)




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                       6
In addition, the Department’s modifications of the FPS, which were based on OIG
recommendations, will increase savings. For example, the Department established a computer
edit designed to reject claims directly through the FPS for those physicians who provided
services in their offices but mistakenly billed them as though they had been provided at
ambulatory surgical centers. 16

Although the Department has made significant progress in addressing the challenges of
measuring actual and projected savings, the Department did not (1) provide contractors with
written instructions on how to determine when savings from an administrative action should be
attributed to the FPS and (2) require contractors to maintain documentation to support how an
FPS lead contributed to an administrative action. As a result, the Department could not ensure
that its contractors provided and maintained reliable data to always support FPS savings.

In some cases, contractors attributed administrative actions to the FPS when the actions taken
were not the result of FPS leads and the documentation did not support attributing the actions to
the FPS. For example, in one case a contractor opened an investigation in July 2012 on the basis
of a beneficiary complaint that the provider was falsifying claims. The FPS had identified the
same provider in a lead created in June 2011. However, the contractor did not open an
investigation at that time, and the lead was not referenced in the supporting documentation for
the investigation. The contractor stated that there was no evidence that the FPS influenced the
investigation, despite the existence of an earlier FPS lead. Accordingly, we did not attribute this
administrative action to the FPS. Providing better guidance could help ensure that contractors
maintain, as appropriate, reliable data supporting attribution of FPS savings.

                                        RECOMMENDATIONS

To help increase savings and improve its reporting on savings measures, we recommend that the
Department:

     •   provide contractors with written instructions on how to determine when savings from an
         administrative action should be attributed to the FPS and

     •   require contractors to maintain documentation to support how the FPS lead contributes to
         an administrative action.




16
 OIG, “Review of Place-of-Service Coding for Physician Services Processed by Medicare Part B Contractors
During Calendar Year 2009” (A-01-10-00516), issued September 7, 2011.



The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   7
CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS generally concurred with our findings, concurred
with our recommendations, and outlined steps for implementing our recommendations.

CMS stated that “the concept of adjusted savings is important as it relates to this financial audit,
and CMS will continue to refine and use a similar methodology next year [emphasis in
original].” However, CMS stated that for a variety of reasons it “will continue to make decisions
on expanding the FPS based primarily on the identified savings.”

CMS stated that even though it provided documentation for an additional $39 million in savings,
we did not certify the savings or provide an explanation for our decision. In this regard, CMS
cited an example of disallowed savings for which it provided documentation. In addition, CMS
stated that it feels that this sentence in our report is inaccurate: “[T]he Department could not
ensure that its contractors provided and maintained reliable data to support FPS savings.”

CMS noted that it had implemented the recommendation from our first-year implementation
report to require contractors to track recoveries that result from FPS leads. However, CMS
recognized that it implemented the recommendation outside of our current audit period.

CMS took exception to our methodology statement regarding the completeness of savings and
costs data provided. CMS stated that it had provided complete costs data and that OIG did not
make any recommendations to improve costs data.

CMS’s comments, excluding one technical comment that we addressed as appropriate, are
included as Appendix D.

OFFICE OF INSPECTOR GENERAL RESPONSE

The “concept of adjusted savings” is important not only as it relates to a financial audit, but more
significantly as a measure of the savings and the return on investment related to the
Department’s use of the FPS. Identified savings does not represent a true return on investment
because only a portion of those savings are returned to, or prevented from leaving, the Medicare
Trust Funds. Therefore, decisions on expanding the FPS should be based primarily on adjusted
savings.

We disagree with CMS’s statement that we did not provide an explanation about the $39 million
in savings that we could not certify. As part of our methodology, we reviewed documentation to
determine if savings estimates were supportable. Because documentation could not support that
the FPS lead contributed to an administrative action for the reported $39 million in savings, we
could not certify these amounts.

As for the example that CMS included in its comments of disallowed savings for which it
provided documentation, during our fieldwork we contacted the responsible contractor to
determine the impact, if any, that the FPS lead had on the investigation. In its written reply, the
contractor stated that it had previously opened an investigation on the provider and that the


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   8
subsequent FPS lead did not impact the investigation. Therefore, in this example, we concluded
the FPS lead did not contribute to the $3 million administrative action.

We have revised the sentence that CMS suggested was inaccurate: “[T]he Department could not
ensure that its contractors always provided and maintained reliable data to support FPS savings.”

Regarding CMS’s implementation of our prior report’s recommendation, after the conclusion of
our fieldwork, CMS stated that on January 1, 2014, it implemented a change in the shared
systems to require contractors to track recoveries that result from FPS leads. We will review the
effectiveness of CMS’s change during our third-year implementation audit.

For the misunderstanding about the statement regarding costs in the scope and methodology
section, we used this statement to inform the reader that we obtained reasonable assurance that
the information provided was sufficient but recognize there could be additional data beyond that
provided by CMS.




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   9
     APPENDIX A: OFFICE OF INSPECTOR GENERAL RECOMMENDATIONS AND
      DEPARTMENT ACTIONS IN THE FIRST-YEAR IMPLEMENTATION REPORT

                    Table 1: OIG Recommendations and Department Actions
                               for the First Implementation Year

No.                OIG Recommendation                              Department Action                  Status
                                                               Developing a corrective
                                                               action to track
       Require contractors to track recoveries that            overpayment recoveries
 1     result from FPS leads.                                  with the MACs.                     Ongoing 17
                                                               Coordinated with OIG’s
       Coordinate with law enforcement to enhance              Office of Investigations to
       the reporting of investigative and                      enhance the reporting of
       prosecutorial outcomes in cases predicated              referrals that resulted from
 2     on referrals from the FPS.                              the FPS.                           Implemented
       Revise the methodology used to calculate
       projected savings with respect to improper
       payments avoided to recognize that some of
       the services associated with prior-year                 Revised the methodology
       claims submitted by a revoked provider may              by including the provider
       be legitimate and claims denied on the basis            revocation adjustment
 3     of edits may ultimately be paid.                        factor.                            Implemented
       Revise the methodology used to calculate
       costs avoided from edits and payment
       suspensions to include verifying that the               Revised the methodology
       information in the Department’s records is              by including the
       consistent with records maintained by ZPICs             adjustment factors for edits
 4     and PSCs.                                               and payment suspensions.           Implemented
       Include all costs associated with the FPS,
       including reporting costs, indirect costs, and          Included all appropriate
       projected costs, in its return-on-investment            costs in its return-on-
 5     calculation.                                            investment calculation.            Implemented




17After the conclusion of our fieldwork, CMS stated that on January 1, 2014, it implemented a change in the shared
systems to require contractors to track recoveries that result from FPS leads.


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                        10
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered the Department’s use of predictive analytics technologies during the second
implementation year of the FPS (October 1, 2012, through September 30, 2013). We reviewed
the unadjusted savings and cost data provided by the Department for that period. On September
5, 2013, the Department provided us with data on the administrative actions taken during the first
9 months of the implementation year. On November 22, 2013, the Department updated the data
to include the entire implementation year, except for the revocations data that was provided on
December 3, 2013. For the second implementation year, the Department provided us with data
that included a total of $299.2 million in unadjusted savings reported by contractors. In addition,
on February 25, 2014, the Department provided us with the final total reported FPS cost data
totaling $40.5 million.

To evaluate whether the savings that the Department attributed to the FPS were reasonable, we
reviewed and discussed the supporting documentation with contractor personnel, and analyzed
supporting documentation related to selected administrative actions. This analysis resulted in
reducing unadjusted savings to $210.7 million. We reviewed and confirmed that the
documentation and the historical data used by the Department to establish adjustment factors to
estimate FPS savings more accurately were reasonable and supported. We reduced the $210.7
million of unadjusted savings by applying the Department’s various adjustment factors to the
savings from administrative actions to estimate the FPS savings more accurately. As shown in
Appendix C, the application of the various adjustment factors to the unadjusted savings resulted
in the certified amounts. To assess the return-on-investment calculation, we reviewed supporting
documentation for $40.5 million in total reported costs, which included costs from the FPS
system contractors and the Department’s staff and contractors to calculate return on investment.
We did not verify that the Department provided us with complete savings and cost data.

To achieve our second objective, we reviewed the Department’s action plans to expand or
modify its use of the FPS to increase savings or mitigate any adverse impact on Medicare
beneficiaries or providers.

We conducted this performance audit to certify the amounts that the Department reported as
actual and projected savings to the Medicare fee-for-service program and the Department’s
return on investment, as required by the Act. We have defined the term “certification” as a
determination that the Department’s reported actual and projected savings and return-on-
investment figures were reasonably estimated. We did not apportion savings between the FPS
and other sources of detection when multiple sources of information led to the administrative
action. Our objectives did not require an understanding or assessment of the overall internal
control structure of the Department or its contractors.

Our fieldwork consisted of contacting contractors nationwide. We also visited the Department in
Baltimore, Maryland, and four contractors, in Hingham, Massachusetts; Camp Hill,
Pennsylvania; Nashville, Tennessee; and Dallas, Texas. We conducted our fieldwork from April
through December 2013.


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   11
METHODOLOGY

To accomplish our objective, we:

    •   reviewed the Act to gain an understanding of the Department’s responsibilities and OIG’s
        responsibilities;

    •   met with Department officials to learn about the Department’s implementation of the
        FPS;

    •   reviewed supporting documentation to determine whether the Department’s
        methodologies, dated November 22, 2013, for calculating actual and projected savings,
        including the various adjustment factors established to reduce unadjusted savings, were
        reasonable and supportable;

    •   contacted contractors to learn about their roles related to the FPS and to understand how
        they attributed administrative actions to the FPS;

    •   reviewed the supporting documentation for administrative actions designated as being
        related to the FPS;

    •   interviewed contractors’ management and investigators to assess the impact the FPS
        supporting documentation had on the investigation;

    •   reviewed the contractors’ notes and supporting documentation to determine whether the
        FPS information was new information that contributed to achieving the administrative
        actions;

    •   met with Department officials to discuss and review the administrative actions that we
        determined were not related to the FPS to evaluate additional support from the
        Department;

    •   applied the Department’s methodology to determine whether the savings from selected
        administrative actions were attributable to the FPS;

    •   applied the Department’s various adjustment factors to the unadjusted savings from
        administrative actions;

    •   reviewed invoices and other supporting documentation to determine whether the reported
        costs from FPS system contractors, the Department’s staff, and the Department’s
        contractors for calculating return on investment were reasonable;

    •   verified that the return on investment was calculated accurately;




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   12
    •   reviewed the Department’s action plans to expand or modify its use of the FPS to
        increase savings or mitigate any adverse impact on Medicare beneficiaries or providers;

    •   reviewed the Department’s report to Congress for the second implementation year; and

    •   discussed the results of our audit with Department officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   13
          APPENDIX C: CERTIFIED FRAUD PREVENTION SYSTEM SAVINGS

                     Table 2: Certified FPS Savings by Administrative Action

                                                                                                     Certified
     Administrative Action               Unadjusted          Adjustment          Reduction              FPS
                                           Savings             Factor             Amount             Savings 18
Payment Suspensions                        $2,260,067           3.0%                 $67,802          $2,192,265
Law Enforcement Referrals 19               73,203,095          94.1%              68,889,938           4,313,157
Overpayment Recoveries                     35,615,848          83.8%              29,857,126           5,758,721
Prepayment Edits                           16,777,677          31.3%               5,243,642          11,534,036
Autodenial Edits                            1,630,629          27.5%                 447,965           1,182,663
Provider Revocations                       81,239,803          64.0%              52,014,428          29,225,375
 Totals                                  $210,727,119          74.3%            $156,520,901         $54,206,217

The Department developed one adjustment factor for payment suspensions and law enforcement
referrals. There is a range of adjustment factors for overpayment recoveries, prepayment edits,
autodenial edits, and provider revocations. In Table 2, for those administrative actions with a
range of adjustment factors, we showed one adjustment factor that is based on a reduction
amount divided by the unadjusted savings. However, we applied the actual adjustment factors to
the appropriate administrative actions to calculate the certified FPS savings. The adjustment
factors for overpayment recoveries depend on each ZPIC’s specific collection history and,
therefore, vary by ZPIC. The adjustment factors for prepayment edits and autodenial edits vary
by provider and service type. The adjustment factors for provider revocations vary by provider
type.




18
  Our application of the Department’s various adjustment factors reduced the unadjusted savings by $156,520,901
or 74.3 percent. Differences in the Certified FPS Savings column are due to rounding.
19
  In a future audit, we plan to determine why the certified FPS savings (collected amount) are such a small
percentage (5.9 percent) of the unadjusted savings (identified amount) from law enforcement referrals.


The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                      14
                                                 APPENDIX D: AUDITEE COMMENTS
~.p.vtr:s:. ..,




{~ ~                DEPARTMENT OF HEAL1H & HUMAN SERVICES                                               Centers for Medicare   &. Medicaid Services

  ~:5'r                                                                                                 Administrator
                                                                                                        Washington, DC 20201




                   DATE:               JUN - 5 2014
                   TO:              Daniel R. Levinson
                                    Inspector General




                   SUBJECT:         Office of Inspector General (OIG) Draft Report: "The Fraud Prevention System
                                    Identified Millions in Medicare Savings, but the Department Could Strengthen
                                    Savings Data by Improving Its Procedures" (A-01-13-00510)


                   The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                   comment on the above-mentioned OIG draft report. The Small Business Jobs Act of2010
                   requires the Secretary of the Department of Health and Human Services to use predictive
                   modeling and other analytics technologies to identify improper claims for reimbursement and to
                   prevent the payment of such claims under the Medicare fee-for-service program. CMS
                   developed the Fraud Prevention System (FPS) in order to implement predictive analytics
                   technologies.

                   The CMS appreciates OIG's finding that the "ongoing use ofthe FPS will strengthen efforts to
                   prevent fraud, waste, and abuse in the Medicare fee-for-service program." CMS made
                   significant progress using the FPS to identify suspect providers and take administrative action to
                   protect the Medicare Trust Funds. In the second implementation year, which aligned with fiscal
                   year {FY) 2013, CMS took administrative action against 938 providers and suppliers due to the
                   FPS. The identified savings, certified by OIG, associated with these prevention and detection
                   actions due to FPS was $210.7 million, almost double the amount identified during the first year
                   of the program.

                   The concept of adjusted savings is important as it relates to this financial audit, and CMS will
                   continue to refine and use a similar methodology next year. The FPS is a prevention-oriented
                   tool, identifying providers and suppliers exhibiting aberrant billing behaviors. Recovering
                   money, which is one important result of investigating these leads, is contingent on numerous
                   other processes and limitations. There are also other hard-to-quantify benefits of the FPS
                   activity, such as the sentinel effect it creates, and the highly collaborative environment it has
                   fostered between CMS and law enforcement, as well as between and among CMS and its
                   program integrity contractors. CMS will continue to make decisions on expanding the FPS
                   based primarily on the identified savings.




                  The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
                  Savings Data by Improving Its Procedures (A-01-13-00510)                                                          15
 Page 2 - Daniel R. Levinson


 The OIG states that ''the Department could not ensure that its contractors provided and
 maintained reliable data to support FPS savings" (page 7). We feel that this statement is
 inaccurate. OIG certified $210.7 million in identified savings and $54.2 million in adjusted
 savings based on sufficient documentation from CMS. CMS also provided documentation to
 support an additional $39 million in savings the agency believes is due to the FPS. OIG did not
 allow the additional savings and did not provide an explanation about the disallowance. The
 following is an example of disallowed savings for which CMS provided OIG documentation:

         A provider had been monitored by the ZPIC since 2011. The FPS later flagged
         the provider with additional information. The ZPIC confirmed that a provider
         interview was conducted based on the new information in the FPS. The case was
         later referred to law enforcement, and included information directly from the
         FPS. The referral identified more than $3 million in potential fraud.

  The OIG states throughout the report that CMS has implemented four of the five OIG
  recommendations in the First Year Implementation Report. In Appendix A, the status of the first
  recommendation is, "Developing a corrective action to track overpayment recoveries with the
  MACs." CMS recognizes that the OIG report is as of the end of the second implementation year.
- However, it is important to clarify that CMS has successfully implemented this recommendation.
  On January 1, 2014, a change was implemented in the shared systems to track overpayment
  recoveries back to the contractor that requested the overpayment. Through this systems change,
  the contractors received technical direction to start including certain information on overpayment
  requests for recovery submitted on or after January 1, 2014, to allow for the tracking.

 The OIG also states on page 4 that it "did not verify that the Department provided us with
 complete savings and costs data." CMS provided the Department complete costs data through
 provision of paid invoices and other documentation. OIG also confirmed that CMS implemented
 OIG's recommendation that CMS "include all appropriate costs in its return-on-investment
 calculation." OIG did not make any recommendations to improve costs data.

 The CMS expects that future activities will substantially increase savings by expanding the use
 of the innovative technology beyond the initial focus on identifying potential fraud into the areas
 of waste and abuse. In FY 2013, CMS completed pilot projects to expand the use of the FPS.
 These pilots included providing leads to the Medicare Administrative Contractors (MACs) for
 medical review and denying claims directly by the FPS that are not supported by Medicare
 policy. CMS may expand these pilot projects nationally to improve fraud, waste, and abuse
 prevention and detection. CMS will also evaluate the feasibility of expanding predictive
 analytics technology to Medicaid.

 Our response to each of the OIG recommendations follows.

  OIG Recommendation

 Provide contractors with written instructions on how to determine when savings from an 

 administrative action should be attributed to the FPS. 





The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   16
 Page 3 - Daniel R. Levinson


 CMS Response

 The CMS concurs with the recommendation. OIG included savings for which "the FPS lead
 contributed to the administrative action by initiating an investigation or corroborating,
 augmenting, and/or expediting an existing investigation." CMS will issue a Technical Direction
 Letter to the Zone Program Integrity Contractors and Program Safeguard Contractors providing
 written instruction on how to determine whether an investigation initiated a new investigation or
 corroborated, augmented, and/or expedited an existing investigation.

 OIG Recommendation

 Require contractors to maintain documentation to support how the FPS lead contributes to an
 administrative action.

 CMS Response

 The CMS concurs with the recommendation. CMS will issue a Technical Direction Letter to the
 Zone Program Integrity Contractors and Program Safeguard Contractors providing written
 instructions on maintaining documentation when an FPS lead initiated a new investigation or
 corroborated, augmented, and/or expedited an existing investigation.

 Again, we appreciate the opportunity to comment on this draft report and look forward to
 working with OIG on this and other issues.




The Fraud Prevention System Identified Millions in Medicare Savings, but the Department Could Strengthen
Savings Data by Improving Its Procedures (A-01-13-00510)                                                   17
